                     AUDIT REPORT

              Audit of NRC’s Communications Security Program



                      OIG-14-A-21 September 29, 2014




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                  September 29, 2014


MEMORANDUM TO:              Mark A. Satorius
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S COMMUNICATIONS SECURITY
                            PROGRAM (OIG-14-A-21)


Attached is the Office of the Inspector General’s (OIG) audit report titled Audit of NRC’s
Communications Security Program.

The report presents the results of the subject audit. Following the September 17, 2014,
exit conference, agency staff indicated that they had no formal comments for inclusion
in this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, at 415-5911.

Attachment: As stated

cc:    M. Galloway, OEDO
       K. Brock, OEDO
       J. Arildsen, OEDO
       C. Jaegers, OEDO
       RidsEdoMailCenter
                                                                             Audit of NRC’s Communications Security Program



EXECUTIVE SUMMARY

          BACKGROUND

                    Nuclear Regulatory Commission (NRC) facilities are equipped with
                    communications security (COMSEC) 1 equipment to facilitate
                    communication of classified and sensitive unclassified information during
                    routine and emergency operations. COMSEC equipment is designed to
                    protect information while it is being transmitted by telephone, cable,
                    microwave, satellite, or any other means. This includes, but is not limited
                    to, keying materials, 2 equipment, devices, documents, and firmware or
                    software that embodies or describes cryptographic logic or performs
                    COMSEC functions. Examples of COMSEC equipment include a key
                    processor, in-line encryptor (data), and a Secure Terminal Equipment
                    (STE)3 phone (voice). Information and material that are designated and
                    marked as containing classified and/or sensitive unclassified information
                    are made available only to appropriately cleared personnel who have a
                    legitimate need-to-know.


                    COMSEC Program at NRC


                    COMSEC equipment at NRC is used to communicate sensitive and
                    classified information and is a vital link for secure communication. NRC
                    headquarters, region offices, and resident inspectors use a mix of
                    classified and unclassified COMSEC equipment. As of August 2014, NRC
                    had 696 COMSEC items in its inventory. In Fiscal Year 2013 (the most
                    current year for which data were available during this audit), NRC spent
                    $3,622,500 on classified information systems, which included COMSEC
                    equipment.




1
 COMSEC is a technical term used in the Federal Government to describe material and equipment designed to secure or
authenticate telecommunications. COMSEC is used to protect both classified and unclassified traffic on Government and military
communications networks, including voice, video, and data. Specific encryption criteria vary depending on information's sensitivity.
2
  Keying materials contain an algorithm used to convert information from plain text to cipher text (encrypt) and convert the
information from cipher text (encrypt) to plain text (decrypt).
3
 A STE consists of a host terminal and a removable security core. The host terminal is the STE, which provides the application
hardware and software. The security core is the crypto card, which provides all the security services.



                                                                   i
                                         Audit of NRC’s Communications Security Program




     COMSEC Responsibilities


     The Office of Nuclear Security and Incident Response is responsible for
     communicating policy and procedural information to the regions and
     making sure the regions are conforming to Federal policy. Each region
     has at least one COMSEC custodian and one alternative person; they are
     responsible for COMSEC items at resident inspector offices – both nuclear
     power plants and fuel cycle facilities – and for supporting resident
     inspector staff with equipment or network problems. The resident
     inspector staff are not custodians, but rather end users; thus, custodian
     responsibilities fall on the regional office COMSEC custodians.


OBJECTIVE


     The audit objective was to determine whether NRC staff manage
     COMSEC systems in accordance with NRC and Federal Government
     COMSEC policies.

RESULTS IN BRIEF

     The Office of the Inspector General evaluated NRC staff’s management of
     the COMSEC program in accordance with Federal and agency policies.
     Based on this work, auditors did not identify instances where staff
     mismanaged the COMSEC program, or classified and sensitive
     information was disclosed to unauthorized personnel. However,
     opportunities exist to improve the COMSEC emergency plans and
     management of equipment maintenance contracting.

     COMSEC Emergency Plans Are Not Consistently Updated and
     Communicated to Staff


     Federal Government COMSEC policy states that emergency plans must
     be documented and maintained, and that staff must be aware of plans for
     the accounting and protection of COMSEC materials during emergencies.
     NRC has not fully complied with Federal Government COMSEC
     emergency planning requirements. This occurs because of inconsistent
     management emphasis on updating plans and informing personnel of their

                                  ii
                                        Audit of NRC’s Communications Security Program



    responsibilities. As a result, NRC staff who manage and use COMSEC
    equipment may not be prepared to uphold their COMSEC responsibilities
    during emergency situations such as natural disasters or hostile actions
    against their facilities.

    Inadequate Maintenance Support Causes High Malfunction Rates for
    Secure Fax Machines

    Federal and NRC guidance provides criteria for procurement and resource
    management that emphasizes efficient and effective resource use.
    Although NRC has a contract in place for secure fax maintenance,
    auditors observed a 60-percent malfunction rate across the agency’s
    inventory of secure fax machines. The high malfunction rates of NRC’s
    secure fax machines are attributable to a lack of performance-based
    contract terms that reflect the agency’s equipment readiness
    requirements. While no NRC staff faced immediate harm because of
    malfunctioning secure fax machines, the quarterly testing and
    compensating maintenance work performed by staff on these machines is
    an inefficient use of agency resources.

RECOMMENDATIONS

    This report makes recommendations to enhance the management of
    NRC’s COMSEC program. A list of these recommendations appears on
    page 11 of this report.

AGENCY COMMENTS

    An exit conference was held with the agency on September 17, 2014.
    Prior to this meeting, after reviewing a discussion draft, agency
    management provided supplemental information that has been
    incorporated into this report, as appropriate. As a result, agency
    management stated their general agreement with the findings and
    recommendations in this report and opted not to provide formal comments
    for inclusion in this report.




                                 iii
                                          Audit of NRC’s Communications Security Program



ABBREVIATIONS AND ACRONYMS

   COMSEC   Communications Security

   CNSS     Committee on National Security Systems

   CSS      Central Security Service

   EKMS     Electronic Key Management System

   MD       Management Directive

   NRC      Nuclear Regulatory Commission

   NSA      National Security Agency

   OIG      Office of the Inspector General

   STE      Secure Terminal Equipment




                                   iv
                                                           Audit of NRC’s Communications Security Program



TABLE OF CONTENTS


         EXECUTIVE SUMMARY ............................................................................ i

         ABBREVIATIONS AND ACRONYNMS ..................................................... iv

         I.      BACKGROUND .............................................................................. 1


         II.     OBJECTIVE .................................................................................... 3


         III.    FINDINGS ...................................................................................... 4


                     A. COMSEC Emergency Plans Are Not Consistently Updated
                        and Communicated to Staff ................................................... 4

                     B. Inadequate Maintenance Support Causes High Malfunction
                        Rates for Secure Fax Machines............................................. 7


         IV.     CONSOLIDATED LIST OF RECOMMENDATIONS ..................... 11


         V.      AGENCY COMMENTS ................................................................. 12


      APPENDIXES

      A. OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 13




                                                  v
                                                                             Audit of NRC’s Communications Security Program



I.        BACKGROUND

                    Nuclear Regulatory Commission (NRC) facilities are equipped with
                    communications security (COMSEC) 4 equipment to facilitate
                    communication of classified and sensitive unclassified information during
                    routine and emergency operations. COMSEC equipment is designed to
                    protect information while it is being transmitted by telephone, cable,
                    microwave, satellite, or any other means. This includes, but is not limited
                    to, keying materials, 5 equipment, devices, documents, and firmware or
                    software that embodies or describes cryptographic logic or performs
                    COMSEC functions. Examples of COMSEC equipment include a key
                    processor, in-line encryptor (data), and a Secure Terminal Equipment
                    (STE)6 phone (voice). Information and material that are designated and
                    marked as containing classified and/or sensitive unclassified information
                    are made available only to appropriately cleared personnel who have a
                    legitimate need-to-know.

                    Figure 1 — Examples of COMSEC Equipment.




                    Source: NRC



4
 COMSEC is a technical term used in the Federal Government to describe material and equipment designed to secure or
authenticate telecommunications. COMSEC is used to protect both classified and unclassified traffic on Government and military
communications networks, including voice, video, and data. Specific encryption criteria vary depending on information's sensitivity.
5
  Keying materials contain an algorithm used to convert information from plain text to cipher text (encrypt) and convert the
information from cipher text (encrypt) to plain text (decrypt).
6
 A STE consists of a host terminal and a removable security core. The host terminal is the STE, which provides the application
hardware and software. The security core is the crypto card, which provides all the security services.



                                                                  1
                                                                      Audit of NRC’s Communications Security Program




                    Controlled Cryptographic Item is a National Security Agency (NSA) term
                    for secure telecommunications or information handling equipment,
                    associated cryptographic component, or other hardware items that
                    perform a critical COMSEC function. The Electronic Key Management
                    System (EKMS) is an NSA program responsible for COMSEC key
                    management, accounting, and distribution. EKMS performs account
                    registration, privilege management, ordering, distribution, and accounting
                    to direct the management and distribution of physical COMSEC materials.
                    NRC is currently in process of upgrading EKMS to a newer version.

                    COMSEC Guidance

                    The Committee on National Security Systems (CNSS), which is led by the
                    Department of Defense, sets guidance on Federal Government COMSEC
                    standards. CNSS guidance 7 prescribes the minimum standards,
                    processes, and procedures for the routine destruction and emergency
                    protection of COMSEC. U.S. Government departments, agencies, and
                    military services may impose more stringent standards or requirements;
                    however, the standards set forth in this instruction cannot be diminished.
                    NRC adheres to CNSS instructions and standards related to the routine
                    destruction and emergency protection of COMSEC.


                    COMSEC Program at NRC

                    COMSEC equipment at NRC is used to communicate sensitive and
                    classified information and is a vital link for secure communications. NRC
                    headquarters, regional offices, and resident inspectors use a mix of
                    classified and unclassified COMSEC equipment. According to NRC
                    guidance, one goal of the agency’s cyber security program 8 is to ensure
                    that COMSEC and classified systems comply with CNSS security
                    requirements. NSA/Central Security Service (CSS) Policy Manual No.
                    3-16, Control of Communications Security (COMSEC) Material, and NRC
                    Management Directive (MD) 12.4, NRC Telecommunications Systems
                    Security Program, are the primary NRC guidance documents.



7
 CNSS Instruction No. 4004.1, “DESTRUCTION AND EMERGENCY PROTECTION PROCEDURES FOR COMSEC AND
CLASSIFIED MATERIAL.”

8
    NRC Management Directive (MD) 12.5, NRC Cyber Security Program.

                                                             2
                                                                           Audit of NRC’s Communications Security Program




                      As of August 2014, NRC had 696 COMSEC items in its inventory. In
                      Fiscal Year 2013 (the most current year for which data were available
                      during this audit), NRC spent $3,622,500 on classified information
                      systems, which included COMSEC equipment.

                      COMSEC Responsibilities

                      The Office of Nuclear Security and Incident Response is responsible for
                      communicating policy and procedural information to the regions and
                      making sure the regions are conforming to CNSS policy. Each region has
                      at least one COMSEC custodian and one alternate; they are responsible
                      for COMSEC items at resident inspector offices – both nuclear power
                      plants and fuel cycle facilities – and for supporting resident inspector staff
                      with equipment or network problems. The resident inspector staff are not
                      custodians, but rather end users; thus, custodian responsibilities fall on
                      the regional office COMSEC custodians.


                      COMSEC custodians are responsible for the receipt, custody, issue,
                      safeguarding, accounting for, and, when necessary, destruction of
                      COMSEC material. 9 In addition, they are responsible for the maintenance
                      of up-to-date records and submission of all required accounting reports.
                      There are a number of COMSEC related tasks and responsibilities that
                      require time in addition to other information technology support duties at
                      the regional office. These duties include quarterly STE function and
                      secure fax testing at each of the resident inspector sites, semiannual
                      inventory checks, data calls with resident inspector sites and the regional
                      office, and encryption keys that must be updated.


II.         OBJECTIVE

                      The audit objective was to determine whether NRC staff manage
                      COMSEC systems in accordance with NRC and Federal Government
                      COMSEC policies. Appendix A contains information on the audit scope
                      and methodology.




9
    Under certain circumstances, end-users are also responsible for destruction of COMSEC material.

                                                                 3
                                                            Audit of NRC’s Communications Security Program



III.        FINDINGS

                     The Office of the Inspector General (OIG) evaluated NRC staff’s
                     management of the COMSEC program in accordance with Federal and
                     agency policies. Based on this work, auditors did not identify instances
                     where staff mismanaged the COMSEC program, or classified and
                     sensitive information was disclosed to unauthorized personnel. However,
                     opportunities exist to improve the COMSEC emergency plans and
                     management of equipment maintenance contracting.


            A. COMSEC Emergency Plans Are Not Consistently Updated and
               Communicated to Staff

                     Federal Government COMSEC policy states that emergency plans must
                     be documented and maintained, and that staff must be aware of plans for
                     the accounting and protection of COMSEC materials during emergencies.
                     NRC has not fully complied with Federal Government COMSEC
                     emergency planning requirements. This occurs because of inconsistent
                     management emphasis on updating plans and informing personnel of their
                     responsibilities. As a result, NRC staff who manage and use COMSEC
                     equipment may not be prepared to uphold their COMSEC responsibilities
                     during emergency situations such as natural disasters or hostile actions
                     against their facilities.

                     Federal Policy Requires Updating and Disseminating COMSEC
                     Emergency Plans

                     Federal Government COMSEC policies require agencies that hold
                     COMSEC material to maintain a current, written emergency plan
                     appropriate for natural disasters (e.g., hurricanes in the South, tornados or
                     floods in the Midwest, wild fires in the West) likely to occur in their
                     location, and hostile actions (such as an enemy or terrorist attack, mob
                     action, or civil uprising) against their facilities. Furthermore, all emergency
                     plans are required to be reviewed annually and updated as necessary,
                     and all authorized personnel at the facility must be aware of the existence
                     of the plan. 10


10
     NSA/CSS Policy Manual No. 3-16.


                                                    4
                                                                              Audit of NRC’s Communications Security Program




                       In addition, NRC’s primary internal guidance for COMSEC program, MD
                       12.4, NRC Telecommunications Systems Security Program, states that
                       each organization holding classified COMSEC material must maintain a
                       current, written emergency plan for the protection of this material during
                       emergencies. 11 NRC’s management is responsible for developing internal
                       controls – such as a current, written emergency plan, procedures, and
                       practices – to fit the agency’s operations and help staff understand and
                       carry out their responsibilities.


                       Plans are necessary so that staff know how to react during an emergency.
                       Emergency plans for natural disasters, for example, must provide
                       preparedness procedures – such as procedures for receiving first
                       responders, securing and removal of COMSEC materials, assessment
                       and reporting, and post-emergency inventory. Hostile actions plans must
                       provide preparedness procedures – such as threat assessment, physical
                       security availability and adequacy, and facilities for implementing
                       emergency evacuation.


                       NRC Compliance with Federal and Agency’s Emergency Plans
                       Requirement Inconsistent

                       NRC is not consistently complying with Federal Government COMSEC
                       emergency planning requirements. OIG visited 13 facilities –
                       including all 4 regional offices, agency headquarters, and resident
                       inspector offices at nuclear power plants. Among these sites, only six
                       sites maintained current emergency plan action procedures. For those
                       offices that had plans, the plans ranged from a verbal description of the
                       process to various types of documents including office instructions, plant
                       and personnel safety procedures, and/or agencywide equipment
                       destruction procedures that did not include specific information needed to
                       safeguard and control COMSEC materials against natural disasters or
                       hostile actions against their facilities. The remaining seven offices
                       reported having no relevant guidance for emergency plans and
                       procedures. Other guidance referenced instructions for transferring and
                       decommissioning of COMSEC equipment; however, procedures – such as
                       preparedness planning for natural disasters/accidental emergency,


11
     MD 12.4 was last issued in 1999, but was undergoing revision during this audit.

                                                                   5
                                                                             Audit of NRC’s Communications Security Program



                      planning for hostile actions, and post emergency procedures – were not
                      addressed in their instructions.

                      COMSEC Emergency Plans Not Consistently Updated and
                      Communicated

                      NRC is not consistently complying with COMSEC emergency planning
                      requirements because of inconsistent management emphasis on updating
                      plans and informing personnel. In five of seven instances, when asked
                      about emergency plans, resident inspectors stated that they did not keep
                      such plans and were not aware of the plans. In addition, resident
                      inspectors acknowledged that the regional offices might have such plans,
                      but they had not been apprised of the plans. One rationale provided for
                      the failure to update plans and inform personnel was the infrequent use of
                      COMSEC equipment for actual emergency events. 12 Further, two resident
                      inspectors questioned the need for such plans because the COMSEC
                      items requiring special controls were already located in a secure location
                      —i.e., inside a nuclear power plant’s protected area. 13 Other NRC staff
                      acknowledged having COMSEC emergency plans on file, but had not
                      informed their staff of this guidance because it had not been updated
                      since 2008.

                      Staff Need Updated Guidance To Perform Duties

                      Without current COMSEC emergency plans and informed personnel, NRC
                      staff may not appropriately perform their COMSEC protection and
                      accountability duties during natural disasters or hostile actions against
                      their facilities. Further, NRC, a participant in the Federal Government’s
                      COMSEC program, has a responsibility to meet the program’s
                      requirements for ensuring its staff are prepared to fulfill their COMSEC
                      duties in emergency situations.

            Recommendations:

                      OIG recommends that the Executive Director for Operations




12
     COMSEC equipment at resident inspector offices is rarely used other than for testing purposes.
13
  Protected areas in nuclear power plants have physical barriers and other controls designed to limit access to authorized
personnel conducting official business.

                                                                   6
                                        Audit of NRC’s Communications Security Program



     1. Develop and maintain current, written emergency plans appropriate for
        natural disasters and hostile actions against their facilities in
        accordance with NSA/CSS Policy Manual No. 3-16.

     2. Review COMSEC emergency plans annually.

     3. Include current emergency plan information and COMSEC equipment
        user duties with COMSEC equipment testing.

B. Inadequate Maintenance Support Causes High Malfunction Rates for
   Secure Fax Machines

     Federal and NRC guidance provides criteria for procurement and resource
     management that emphasizes efficient and effective resource use.
     Although NRC has a contract in place for secure fax maintenance,
     auditors observed a 60-percent malfunction rate across the agency’s
     inventory of secure fax machines. The high malfunction rates of NRC’s
     secure fax machines are attributable to a lack of performance-based
     contract terms that reflect the agency’s equipment readiness
     requirements. While no NRC staff faced immediate harm because of
     malfunctioning secure fax machines, the quarterly testing and
     compensating maintenance work performed by staff on these machines is
     an inefficient use of agency resources.

     Federal and NRC Guidance Emphasizes Efficient and Effective
     Resource Use

     Federal and NRC guidance provides criteria for procurement and resource
     management that emphasizes efficient and effective resource use.
     Government Accountability Office guidance emphasizes internal controls
     to help agencies meet their operational objectives through effective and
     efficient use of resources. Moreover, the objectives of NRC MD 11.1,
     NRC Acquisition of Supplies and Services, include achieving the best
     value for NRC's acquisition of supplies and services, and ensuring
     appropriate use of taxpayer funds when planning, negotiating, awarding,
     and administering contracts.

     Secure Fax Machines Have High Malfunction Rates




                                  7
                                                                              Audit of NRC’s Communications Security Program



                     Although NRC has a contract in place for secure fax maintenance, there is
                     a high malfunction rate across the agency’s inventory of 90 secure fax


                     machines. 14 Auditors reviewed secure fax test result logs from the regions
                     and found failure rates ranging from 37 percent to 81 percent during the
                     most recent quarterly tests. 15 One region did not provide data because its
                     staff had suspended the required functionality tests knowing in advance
                     that their machines would fail.

                     Figure 2 — High malfunction rate of secure fax machines from the
                     regions.




                                          40% Passed

                                                                            60% Failed




                     Source: OIG

                     NRC staff has attempted to maintain secure fax machines that fail due to
                     inoperable components using an in place maintenance contract, while also
                     allocating some funds for new secure fax machines of a different model.

                     As of July 24, 2014, NRC had spent a total of $63,000 for maintenance of
                     secure fax equipment covering the period of August 2011 to December
                     2014. NRC recently extended the contract into the option year (starting
                     December 2013) even though those model faxes were known to function
                     poorly. OIG was advised that NRC could not replace all of its
                     malfunctioning machines with a more reliable model due to limited funds.

14
  Staff interviews and documentation of fax test results show a total of 43 sites tested during the first quarter of 2014; 26 sites failed
the test.
15
  Staff interviews and documentation of equipment test results show the fax machines have had functionality problems for several
years.

                                                                    8
                                                                           Audit of NRC’s Communications Security Program



                    Subsequent to this audit, NRC staff reportedly issued a new contract to
                    replace malfunctioning secure fax machines at resident inspector sites.

                    NRC Lacks Performance-Based Maintenance Support Contract for
                    Secure Faxes

                    The high failure rates of NRC’s secure fax machines are attributable to
                    lack of performance-based contract terms that reflect the agency’s
                    equipment readiness requirements. 16 NRC has relied on a firm-fixed price
                    maintenance support contract worth approximately $31,000 annually to
                    procure maintenance and support service for the 90 NRC-owned secure
                    fax machines. Maintenance covers all parts and labor and phone
                    technology support. The contract was renewed most recently for the
                    December 2013 through December 2014 time period.

                    While the contract specifies work to be performed by the vendor, it does
                    not include performance goals such as readiness rates for NRC’s secure
                    faxes. 17 Moreover, the contract does not link vendor compensation to
                    defined performance metrics; thus NRC pays its vendor for work
                    regardless of the outcome of that work. 18 NRC staff acknowledged that
                    future maintenance support contracts would benefit from more specific
                    language about the agency’s expectations, as well as performance-based
                    terms to hold vendors accountable for meeting work quality standards.

                    Malfunctioning Secure Faxes Result in Inefficient Resource Use and
                    Diminished Communications Capabilities

                    While OIG did not identify immediate harm to NRC staff resulting from
                    malfunctioning secure fax machines, staff would not have been able to
                    use the machines for their intended purpose to send or receive sensitive
                    written information or graphics. Additionally, the $63,000 spent over a




16
  Performance-based acquisition is the preferred method for acquiring services in the Federal Government. Under this approach, all
aspects of the work and acquisition are structured around the purpose of the work to be performed (i.e., performance results or
outputs) rather than the manner in which the work is to be performed.
17
  Performance-based contracts are to include performance work statements or statements of objectives that describe work in terms
of required results rather than “how” the work is to be accomplished or the number of hours to be provided. See Federal Acquisition
Regulation, Subpart 37.602.
18
  If appropriate, performance incentives are to correspond to performance standards set forth in the contract. See Federal
Acquisition Regulation, Subpart 37.601.



                                                                9
                                                                              Audit of NRC’s Communications Security Program



                     3-year period to maintain inoperable machines could have been used to
                     support other COMSEC program needs. Furthermore, the quarterly
                     testing and compensating maintenance work performed by staff on these


                     machines is an inefficient use of agency resources. 19 Staff expressed
                     concerns about the administrative burden associated with testing and
                     reported devoting considerable time to repairing the machines or helping
                     their colleagues repair the machines, 20 despite the fact that COMSEC
                     custodian duties are ancillary for region-based staff tasked primarily with
                     other duties. In addition to this burden on staff time, malfunctioning of
                     secure faxes diminishes NRC’s ability to disseminate information to staff
                     under specific emergency conditions.

          Recommendation:


                     OIG recommends that the Executive Director for Operations
                     4. Procure a secure fax maintenance support contract that specifies
                        maintenance performance standards and links these standards to
                        vendor compensation.




19
  During each test, at least two staff are involved: one sending the test fax, and one confirming receipt or failure to receive the test
fax. When fax machines fail, these tests can take up to an hour as the staff troubleshoot and attempt to fix malfunctions.
20
  In some cases, region-based COMSEC custodians drive to nearby resident inspector sites to perform maintenance work
themselves. In cases where Resident Inspector sites are located far from NRC region offices, COMSEC custodians provide
maintenance support by phone.

                                                                   10
                                             Audit of NRC’s Communications Security Program



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations

          1. Develop and maintain current, written emergency plans appropriate for
             natural disasters and hostile actions against their facilities in
             accordance with NSA/CSS Policy Manual No. 3-16.

          2. Review COMSEC emergency plans annually.

          3. Include current emergency plan information and COMSEC equipment
             user duties with COMSEC equipment testing.

          4. Procure a secure fax maintenance support contract that specifies
             maintenance performance standards and links these standards to
             vendor compensation.




                                      11
                                           Audit of NRC’s Communications Security Program



V.   AGENCY COMMENTS

        An exit conference was held with the agency on September 17, 2014.
        Prior to this meeting, after reviewing a discussion draft, agency
        management provided supplemental information that has been
        incorporated into this report, as appropriate. As a result, agency
        management stated their general agreement with the findings and
        recommendations in this report and opted not to provide formal comments
        for inclusion in this report.




                                    12
                                             Audit of NRC’s Communications Security Program


                                                                                APPENDIX A
OBJECTIVE, SCOPE, AND METHODOLOGY

    OBJECTIVE

        The audit objective was to determine whether NRC staff manage
        COMSEC systems in accordance with NRC and Federal Government
        COMSEC policies.

    SCOPE

        The audit reviewed NRC’s activities related to COMSEC with special
        emphasis on process and compliance with current laws. OIG performed
        the audit work at NRC headquarters in Rockville, Maryland; NRC regional
        offices; and licensee facilities from March 2014 to August 2014. Internal
        controls related to the audit objective were reviewed and analyzed.
        Throughout the audit, auditors were aware of the possibility of fraud,
        waste, and abuse in the program.

    METHODOLOGY

        To accomplish the audit objective, OIG reviewed and analyzed Federal
        Government guidance, and internal agency procedures. Guidance
        reviewed included the following:

            •   Government Accountability Office Standards for Internal Control in
                the Federal Government.

            •   National Security Agency Central Security Service Policy Manual
                No. 3-16, Control Of Communications Security (COMSEC)
                Material.

            •   Committee on National Security Systems Instruction No. 4004.1,
                Destruction and Emergency Protection Procedures for COMSEC
                and Classified Material.

            •   NRC Management Directive 12.4, NRC Telecommunications
                Systems Security Program.

            •   NRC Management Directive 12.5, NRC Cyber Security Program.

                                      13
                                    Audit of NRC’s Communications Security Program




   •   NRC Management Directive 11.1, NRC Acquisition of Supplies and
       Services.

OIG interviewed headquarters staff, regional personnel, and resident
inspectors at nuclear power plants and fuel cycle facilities to gain an
understanding about COMSEC policies and procedures. Furthermore,
OIG inspected COMSEC equipment at all four region offices, seven
nuclear power plants, and one fuel cycle facility: Three Mile Island
Nuclear Station in Middletown, PA; Salem - Hope Creek Nuclear Station in
Hancock's Bridge, NJ; Braidwood Nuclear Generating Station in
Braidwood, IL; Dresden Nuclear Power Plant in Morris, IL; Comanche
Peak Nuclear Power Plant in Glen Rose, TX; Columbia Generating Station
in Richland, WA; North Anna Power Station in Mineral, VA; and Babcock
& Wilcox Nuclear Operations Group Fuel Cycle Facility in Lynchburg, VA.
We selected these sites to sample commercial nuclear power reactors and
fuel cycle facilities under each of the four region office jurisdictions.

We conducted this performance audit in accordance with generally
accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient and appropriate
evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our
audit objectives.


The work was conducted by Beth Serepca, Team Leader; Paul Rades,
Audit Manager; Rob Woodward, Audit Manager; Neil Doherty, Senior
Analyst; and Ziad Buhaissi, Senior Auditor.




                            14
